U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 26, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Doncey F. Boykin v. United State of America
S.Ct. No. 19-1264

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 30,
2020, and placed on the docket on May 4, 2020. The government's response is due on June 3,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 6, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19- 1264
BOYKIN, DONCEY F.
USA

STEVEN JOHN WINKELMAN
COVINGTON & BURLING LLP
ONE CITYCENTER, 850 TENTH STREET NW
WASHTNGTON, DC 20001
202-662-5097
SWINKELMAN@COV.COM

